No. _________
IN THE SUPREME COURT OF THE UNITED STATES

KENNETH WAYNE WALKER, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

/s/ Christopher A. Curtis
JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax

Christopher A. Curtis **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 05270900
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
(817) 978-2753

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit, CA No. 20-10590, dated
January 8, 2021, United States v. Walker, 832 F. App'x 915 (5th Cir.
Jan. 8, 2021) (unpublished).
Appendix B Judgment of Revocation and Sentence of the United States District
Court for the Northern District of Texas, entered June 10, 2020.
United States v. Walker, Dist. Court 4:06-CR-079-Y.
Appendix C Amended Judgment and Sentence of the United States District Court
for the Northern District of Texas entered December 14, 2006.
United States v. Walker, Dist. Court 4:06-CR-079-Y.

APPENDIX A

Case: 20-10590

Document: 00515700600

Page: 1

Date Filed: 01/08/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
January 8, 2021

No. 20-10590
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Kenneth Wayne Walker, Jr.,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:06-CR-79-3
Before Jolly, Elrod, and Graves, Circuit Judges.
Per Curiam:*
Kenneth Wayne Walker, Jr., appeals the revocation of his supervised
release and the sentence of 24 months of imprisonment and 60 months of
supervised release imposed under 18 U.S.C. § 3583(g).

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

App. A 001

Case: 20-10590

Document: 00515700600

Page: 2

Date Filed: 01/08/2021

No. 20-10590

Relying on United States v. Haymond, 139 S. Ct. 2369 (2019), Walker
first argues § 3583(g) is unconstitutional because it requires the district court
to revoke a defendant’s supervised release and impose a prison sentence
without affording the defendant the constitutional right to have the
allegations proven to a jury beyond a reasonable doubt. Because Walker did
not assert this argument in the district court, plain error review applies. See
Puckett v. United States, 556 U.S. 129, 135 (2009). Walker correctly concedes
that his argument under plain error review is foreclosed. Because “there
currently is no caselaw from either the Supreme Court or this court extending
Haymond to § 3583(g) revocations, the district court could not have
committed any clear or obvious error in applying the statute.” Badgett v.
United States, 957 F.3d 536, 541 (5th Cir. 2020) (internal quotation marks and
citation omitted), cert. denied, 2020 WL 6551838 (U.S. Nov. 9, 2020) (No.
20-5851).
Walker next argues that his sentence is substantively unreasonable
because, by treating revocation as mandatory under § 3583(g), the district
court considered an improper factor and made a clear error of judgment in
balancing the sentencing factors. He also argues that the district court’s
statements that his sentence would “address” his supervised release
violations and serve as “deterrence” showed that the district court
considered punishment, which is an improper factor in a revocation sentence.
A district court may consider the factors under 18 U.S.C. § 3553(a) when
imposing a sentence in connection with a mandatory revocation under
§ 3583(g), but it is not required to do so. See United States v. Illies, 805 F.3d
607, 609 (5th Cir. 2015).
Even assuming, arguendo, that treating his revocation as mandatory
was an improper factor, the district court stated that it would have imposed
the same sentence regardless of whether revocation was mandatory.
Furthermore, Walker has not explained how the district court’s other

2

App. A 002

Case: 20-10590

Document: 00515700600

Page: 3

Date Filed: 01/08/2021

No. 20-10590

statements evinced a desire to punish, assuming arguendo that the need to
punish was an impermissible factor under § 3583(g). Accordingly, Walker
has not shown that his sentence was substantively unreasonable. See United
States v. Warren, 720 F.3d 321, 332 (5th Cir. 2013).
The district court’s judgment is AFFIRMED.

3

App. A 003

APPENDIX B

Case 4:06-cr-00079-Y Document 339 Filed 06/10/20

Page 1 of 2 PageID 1565

United States District Court
Northern District of Texas
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE
for revocation of supervised release

v.
Case number: 4:06-CR-079-Y (3)
Robert J. Boudreau, assistant U.S. attorney
Jaidee Serrano, attorney for the defendant

KENNETH WAYNE WALKER JR.

On June 9, 2020, a hearing was held, at which time the Court determined that the defendant, Kenneth Wayne Walker Jr.,
had violated his conditions of supervised release. Accordingly, the defendant is adjudged guilty of such violations, which
involve the following conditions:
CONDITION

NATURE OF VIOLATION

VIOLATION CONCLUDED

Standard condition no. 7
and additional conditions

Using and possessing marijuana

December 2019; January,
February, and May 2020

Addition condition

Failing to attend substance abuse treatment
services at HOPE, Fort Worth, Texas

January 2020

Standard condition no. 9

Associating with persons convicted of a felony

December 2019 and January
2020

Additional condition

Committing robbery

March 2020

Additional condition

Possessing a firearm

March 2020

The defendant is sentenced as provided in pages one through two of this judgment. The sentence is imposed pursuant
to the Sentencing Reform Act of 1984.
The defendant shall notify the United States attorney for this district within thirty (30) days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid.
Sentence imposed June 9, 2020.
____________________________
TERRY R. MEANS
UNITED STATES DISTRICT JUDGE
Signed June 10, 2020.

App. B 001

Judgment
a Criminal Case
Case in
4:06-cr-00079-Y
Document
Defendant: Kenneth Wayne Walker Jr.
Case Number: 4:06-CR-079-Y (3)

339 Filed 06/10/20

Page 2 of 2 PageID 1566

Judgment -- Page 2 of 2

IMPRISONMENT
The defendant, Kenneth Wayne Walker Jr., is hereby committed to the custody of the Federal Bureau of Prisons to be
imprisoned for a term of 24 months, pursuant to 18 U.S.C. § 3583(e)(3).
The defendant is remanded to the custody of the United States marshal.

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall return to supervised release for a term of 60 months upon the same
conditions as were imposed on November 27, 2006, in this case, case no. 4:06-CR-079-Y (3), in the United States District Court
for the Northern District of Texas.
RETURN
I have executed this judgment as follows:

Defendant delivered on _________________________ to__________________________________________
at____________________________________________________________, with a certified copy of this judgment.
__________________________________
United States marshal
BY _______________________________
deputy marshal

App. B 002

APPENDIX C

Case 4:06-cr-00079-Y Document 107 Filed 12/14/06

Page 1 of 3 PageID 254

United States District Court
NORTHERN DISTRICT OF TEXAS
Fort Worth Division
AMENDED
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case number: 4:06-CR-079-Y (3)
U.S. marshal's no: 35480-177
J. Michael Worley, assistant U.S. attorney
John Hopping, attorney for the defendant

KENNETH WAYNE WALKER JR

On July 19, 2006, the defendant, Kenneth Wayne Walker Jr, entered a plea of guilty to count 2 of the three-count
Indictment filed on May 10, 2006. Accordingly, the defendant is adjudged guilty of such count, which involves the following
offense:
Title & Section
21 U.S.C. § 841(a)(1) &
(b)(1)(C) and
18 U.S.C. § 2

Nature of Offense

Date Offense Concluded

Distribution of Cocaine Base (Crack
Cocaine) and Aiding and Abetting, a
Class C Felony

June 13, 2005

Count Number(s)

2

The defendant is sentenced as provided in pages 2 through 3 of this judgment. The sentence is imposed pursuant to Title
18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing Commission pursuant to Title
28, United States Code § 994(a)(1), as advisory only.
All remaining counts are dismissed as to this defendant only upon motion of the government.
The defendant shall pay immediately a special assessment of $100 for count 2 of the three-count Indictment.
The defendant shall notify the United States attorney for this district within thirty (30) days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid.
Sentenced imposed November 27, 2006
Amended December 14, 2006

Signed December 14, 2006

App. C 001

Judgment
a Criminal Case
Casein4:06-cr-00079-Y
Document
Defendant: Kenneth Wayne Walker Jr
Case Number: 4:06-CR-079-Y (3)

107 Filed 12/14/06

Page 2 of 3 PageID 255

Judgment -- Page 2 of 3

IMPRISONMENT
The defendant, Kenneth Wayne Walker Jr, is hereby committed to the custody of the Federal Bureau of Prisons to be
imprisoned for a term of 240 months on count 2 of the three-count Indictment.
The Court recommends that the defendant be placed in the Institution Residential Drug Abuse Treatment
Program, if qualified.
The defendant is remanded to the custody of the United States marshal.

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of 3 years on count 2 of
the three-count Indictment.
While on supervised release, in compliance with the standard conditions of supervision adopted by the United States
Sentencing Commission, the defendant shall:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)

( 8)
( 9)
(10)
(11)
(12)
(13)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer as directed by the Court or probation officer and submit a truthful and
complete written report within the first five (5) days of each month;
answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling, training,
or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law
enforcement officer;
not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to confirm
the defendant's compliance with such notification requirement, as directed by the probation officer.

In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. Probation Officer, pursuant to the Justice
for All Act of 2004;

App. C 002

Judgment
a Criminal Case
Casein4:06-cr-00079-Y
Document
Defendant: Kenneth Wayne Walker Jr
Case Number: 4:06-CR-079-Y (3)

107 Filed 12/14/06

Page 3 of 3 PageID 256

Judgment -- Page 3 of 3

report in person to the probation office in the district to which the defendant is released within seventytwo (72) hours of release from the custody of the Bureau of Prisons;
refrain from any unlawful use of a controlled substance, submitting to one drug test within 15 days
of release from imprisonment and at least two periodic drug tests thereafter, as directed by the
probation officer;
participate in a program approved by the U.S. Probation Office for treatment of narcotic or drug or
alcohol dependency that will include testing for the detection of substance abuse, abstaining from the
use of alcohol and all other intoxicants during and after completion of treatment and contributing to
the costs of services rendered (co-payment) at the rate of at least $20 per month; and
participate in mental health treatment services as directed by the U.S. Probation Officer until
successfully discharged, which services may include prescribed medications by a licensed physician,
with the defendant contributing to the costs of services rendered in an amount to be determined by the
U.S. Probation Officer, based on ability to pay or availability of third-party payment.

FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial resources or
future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

RETURN
I have executed this judgment as follows:

Defendant delivered on _________________________ to________________________________________________
at____________________________________________________________, with a certified copy of this judgment.
__________________________________
United States marshal
BY _______________________________
deputy marshal

App. C 003

